CERTIFICATE OF SERVICE
No. 20-1589
Kris Kaszuba, dba Hollywood Group
Petitioner,
v.
Drew Hirshfeld, Acting Under Secretary of Commerce for Intellectual Property and Director,
United States Patent and Trademark Office
Respondent.
STATE OF MASSACHUSETTS )
) SS.:
COUNTY OF NORFOLK
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Kris
Kaszuba, dba Hollywood Group Supplemental Brief of Petitioner, by mailing three (3) true
and correct copies of the same by USPS Priority mail, prepaid for delivery to the following address.
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj .gov
Counselfor Drew Hirshfeld

Lucas'DeDeus

September 22, 2021
SCP Tracking: Kaszuba-Hollywood Beer ©-Cover Tan

